IN THE
SUPREME COURT OF THE UNITED STATES

No:

ADOLPHUS SYMONETTE,
Petitioner,
Vv

UNITED STATES OF AMERICA,
Respondent,

CERTIFICATE OF SERVICE

 

I HEREBY CERTIFY that I have been appointed to represent petitioner for
this appeal pursuant to the Criminal Justice Act of 1964, codified at 18 U.S.C. §
3006A. I also certify that a copy of the foregoing petition and appendices have been
electronically filed with the United States Supreme Court and emailed to all parties
on August 29, 2021. The United States is represented by Assistant U.S. Attorney
Randall Dana Katz, U.S. Department of Justice, 500 E. Broward Blvd., Suite 700,

Ft. Lauderdale, Florida 33394. Mr. Katz’ email address is randy.katz@usdoj.gov.

ae ‘

% oe jj 2
Ronald S. Chay in, P.A.
400 Clematis Street, Suite 206
West Palm Beach, FL 33401
Tel. (561) 832-4348
Fax (561) 832-4346
ronchapman@justiceflorida.com
Florida Bar No. 0898139
Attorney for Petitioner
